OIG Audit Report GR-30-02-007R

Office of Community Oriented Policing Services Grants to the Frederick County Sheriff's Department
Frederick, Maryland


Report No. GR-30-02-007R


Revised January 2004
Office of the Inspector General


Executive Summary

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Frederick County Sheriff's Department (grantee).  The purpose of the grants is to enhance community policing.  The COPS Office awarded the grantee a total of $3,350,000 to hire 34 new police officers for community policing.
We reviewed the grantee's compliance with six essential grant conditions and found that the grantee complied with the terms and conditions of the grants.  Our audit objectives, scope, and methodology appear in Appendix I.